NO.

Supreme Court, U.S.
FILED

NOV 1 3 2020

IN THE SUPREME COURT OF THE UNITED STATES

OFFICE OF THE CLERK

Clayton Waagner, pro se - Petitioner,
vs.
Unites States of America - Respondent

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Pursuant to Rule 39 of the Rules of this Court, the Petitioner, Clayton L. Waagner, ask
leave to file the attached Petition for Writ of Certiorari, without prepayment of cost, and to
proceed in forma pauperis.
The Petitioner was represented by counsel appointed pursuant to Title 18, United States
Code ยง3 006(a) (the Criminal Justice Act) both in the district court and on appeal to the Seventh
Circuit Court of Appeals. Petitioner has been incarcerated for more than twenty years with the
Federal Bureau of Prisons and remains indigent.
RESPECTFULLY SUBMITTED

Clayton L. Waagner,^pro se
Reg. #17258-039
Federal Correctional Institution
P.O. Box 1000
Cumberland, MD 21501

RECEIVED

NOV 2 0 2020

a

